Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      MEDICARE HOSPITAL 

      DISCHARGE PLANNING 





                  JUNE GIBBS BROWN
                  Inspector General

                    DECEMBER 1997
                     OEI-02-94-00320
                      OFFICE OF INSPECTOR               GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law
95-452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This statutory
mission is carried out through a nationwide program of audits, investigations, inspections,
sanctions, and fraud alerts. The Inspector General informs the Secretary of program and
management problems and recommends legislative, regulatory, and operational approaches
to correct them.



                        Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office
of Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the
public. The inspection reports provide findings and recommendations    on the efficiency,
vulnerability, and effectiveness of departmental programs.

The OEI’s New York Regional Office prepared this report under the direction    of John I.
Molnar, Regional Inspector General. Principal OEI staff included:

Region                                             Headquarters

Renee Dunn, Project Leader                         Linda Moscoe 

Ellen Vinkey, Lead Analyst                         Barbara Tedesco 

Panayiotis Beloyeannis, Intern                     Stuart Wright 

Thomas Bollyky 

Daniel Ginsberg 


To obtain a copy of this report, call the New York Regional Office at 212-264-1998    or
fax a request to 212-264-1026.
                  EXECUTIVE                             SUMMARY

PURPOSE

To determine how and to what extent hospital ownership of home health agencies or nursing
homes impacts hospital discharge planning for Medicare beneficiaries.

BACKGROUND

Hospital discharge planning is a process where a plan is developed       for a patient to receive
appropriate post-hospital placement and services.

A significant reduction in the average length of stay for acute care hospital patients     created a
greater need for post-hospital services such as home health and nursing home care.          These
reductions are widely believed to be associated with advances in medical technology          as well
as the implementation   of the Medicare prospective payment system. As the average          hospital
stay decreases, the role of the hospital discharge planning process has become more         critical.

This study focuses on discharge planning for patients who are referred to home health
agencies or nursing homes owned by their discharging hospitals. We based our results on:
utilization data for the hospital and post-hospital stays for a stratified random sample of
Medicare beneficiaries who had been discharged from a hospital and went to either a home
health agency or a nursing home; mail questionnaires sent these Medicare beneficiaries; mail
questionnaires sent to discharge planners from the beneficiaries’ discharging hospitals; and a
review of materials related to the discharge planning process that were submitted to us by the
discharge planners.

FINDINGS

Hospital ownership seems to have little influence on which nursing homes patients are
referred to

We analyzed the discharge process experienced by beneficiaries in our sample who went to a
nursing home. Regardless of whether the nursing home was owned by the discharging
hospital, nursing home beneficiaries report having input in the referral process. Only 13
percent of them say, “the hospital just told me where to go. ” Only a quarter of beneficiaries
report “no say” in the decision about which nursing home to choose. Many beneficiaries
report that the decision to go to a particular nursing home was made by a relative. Of
nursing home patients who were discharged from a hospital that owned a nursing home, only
40 percent went to the one owned by the discharging hospital.

However, it does influence the length of stay in both the hospital and the nursing home

There has been concern and some evidence that hospitals which own nursing homes 

discharge patients sooner to their own facilities and those patients stay in the facilities longer. 



                                                    i
This raises the question of whether hospitals are lowering their costs for patients for whom
they are receiving a lump sum prospective payment from Medicare and discharging those
same patients to post-hospital services for which they are being paid on a cost basis. This
cost shifting would result in increased Medicare reimbursement for the hospital.

When we analyzed relevant data for beneficiaries who got services from hospital-owned
nursing homes, we found additional evidence supporting this concern. We found a
statistically significant difference in the length of hospital stays; beneficiaries discharged to
the hospital-owned nursing homes had average hospital stays of 6.8 days, as compared to 8.9
days for those beneficiaries who went to a nursing home independent of their hospital. In
addition, we found a statistically significant difference in the length of nursing home stays;
beneficiaries who went to the hospital owned nursing home averaged a 37 day nursing home
stay while those who went to a nursing home independent of their hospital averaged a 29 day
nursing home stay. This supports the concern that hospitals are shifting patients from acute
care, reimbursed under a lump sum prospective payment, to post-acute care in nursing
homes, which is reimbursed on a cost basis, thus maximizing Medicare reimbursement.

Hospital ownership does seem to have influence on which home health agencies patients
are referred to

Many beneficiaries report not having full choice in selecting a home health agency. 

In contrast to nursing home beneficiaries, 38 percent of home health agency beneficiaries 

who went to hospital-owned agencies report that the hospital “just sent home care people to 

them. ” Again, in contrast to nursing home beneficiaries, focusing only on home health 

patients who were discharged from a hospital that owned a home health agency, we found 

that fully 62 percent of them went to the agency owned by the discharging hospital. 


Discharge planners from hospitals which own home health agencies report that hospital 

ownership is a factor in their referral process to home health agencies: 19 percent report 

that, unless patients or families object, they refer all patients to their hospital-owned agency 

and almost 10 percent believe that someone from the hospital puts pressure on patients to 

choose a particular home health agency. Finally, hospitals owning home health agencies are 

more likely to have referral procedures than those which do not own agencies. 


Hospital ownership also influences the duration of home health agency services

There was a statistically significant difference with regard to the length of home health
agency services; those beneficiaries that received services from a home health agency owned
by the hospital they were discharged from averaged 49 days of service while those receiving
care from a home health agency independent of their hospital averaged 37 days of service.
However, no statistically significant difference in the length of the hospital stay was found
when comparing hospital stays for beneficiaries who received care from a home health
agency owned by their discharging hospital to stays for those beneficiaries who received care
from an agency independent of their discharging hospital.




                                                  ii
Beneficiaries who go to hospital-owned nursing homes and home health agencies report
better continuity of care

One goal of the discharge planning process is to promote a strong connection between the
care provided in the hospital and the care given by the home health agency or nursing home.
It is generally assumed that if discussions are held with patients regarding their post-hospital
needs and how they can be addressed, the likelihood that these needs will be met is
improved.     It is also assumed that the earlier discussions are held and the more comfortable
beneficiaries are with the timing of their hospital discharge, the better the continuity of their
care will be.

Beneficiaries who went to hospital-owned home health agencies are more likely than those
who got independent services to report: having been discharged at the right time (89 versus
77 percent); knowing what healthcare services they are supposed to get after leaving the
hospital (92 versus 83 percent); and, that the connection between their care providers was
very good (88 versus 43 percent).    Those who went to hospital-owned nursing homes were
more likely to report: having been talked to early; having been talked to about the post-
hospital services they thought they would need (95 versus 61 percent); having been
discharged at the right time; and, that their overall health improved (77 versus 43 percent).

Hospital ownership does not impact beneficiaries’ level of satisfaction

Both home health agency and nursing home beneficiaries report high levels of satisfaction
with the discharge planning process. Their satisfaction does not differ based on ownership.

RECOMMENDATIONS

Our findings suggest that hospital ownership of nursing homes plays a significant role with
regard to the nursing home beneficiary utilization patterns. The hospital stay is shorter and
the nursing home stay longer thus the hospital may be shifting cost from a prospective
payment system to a cost-based system, maximizing Medicare reimbursement.        Therefore,
we recommend the following:

  b	   The HCFA should develop statistical methods to target for special review providers
       who may be maximizing their Medicare reimbursement in this way. The records of
       these providers should be reviewed by the Peer Review Organizations, as in the past,
       or through some other suitable mechanism.      Providers who are found to be
       inappropriately discharging beneficiaries to their own nursing homes should be subject
       to payment adjustments and appropriate fines or penalties.

Our findings also suggest that hospital ownership plays a significant role in home health
agency referral discussions and some role, albeit a lesser one, in nursing home referral
discussions.  In addition, we found that many Medicare beneficiaries do not have full choice
in selecting a home health agency or nursing home. Therefore, we recommend the
following:



                                                 ...
                                                 111
   b	   The HCFA should assure that hospitals disclose ownership         of home health agencies
        and nursing homes in a systematic way.

           � 	   Hospitals which own home health agencies and nursing homes should be
                 required to disclose the names of the home health agencies and nursing homes
                 which they own to all beneficiaries who are possible candidates for these post-
                 hospital services.

           a	    Hospitals which own home health agencies and nursing homes should be
                 required to disclose this information to HCFA.

   b	   The HCFA should take additional measures to assure that when beneficiaries are
        being discharged from the hospital they are given a choice in selecting a home health
        agency or nursing home from which to receive care.

           0	    Hospitals should be required to inform patients (or their families) that they are
                 free to choose among home health agency providers and nursing homes. This
                 information should be provided as early as possible.

           0	    Hospitals should maintain a file of Medicare participating home health
                 agencies and nursing homes in the area and provide beneficiaries (or their
                 families) with a list of alternatives which are appropriate for the level of care
                 they need.

   w	   Since our findings support the need for additional Medicare beneficiary information
        related to post-hospital services and choice, we recommend that HCFA prepare
        information for beneficiaries addressing this issue and circulate it widely.

1997 BALANCED         BUDGET ACT

The 1997 Balanced Budget Act includes a provision which addresses the concern that some
hospitals are shifting costs from a prospective payment system to a cost-based system, thus
maximizing Medicare reimbursement.       Section 4407 of this recently enacted law redefines
beneficiaries with certain diagnoses who are discharged from hospitals to nursing homes and
home health agencies (as well as other prospective payment exempt settings) as “transfers.”
This law limits payments to hospitals for these cases.

This recently enacted law addresses the concern disclosing hospital ownership information
and Medicare that beneficiaries are informed of their freedom to choose the home health
agency or nursing home to which they will be referred. Section 4321 of the 1997 Balance
Budget Act requires hospitals referring patients to home health agencies (HHA) and other
post-hospital providers to:

  0	    not specify or otherwise limit beneficiaries    in terms of which post-hospital   service
        provider they receive services from;




                                                   iv
        provide beneficiaries with information   on HHAs and other post-hospital   providers
        which serve the area;

        disclose to the beneficiary any financial interest which the hospital may have in an
        HHA or other post-hospital provider to which they are referred; and,

        disclose to HCFA the nature of any financial interest which the hospital has in a home
        health agency or other post-hospital service provider, as well as related referral rate
        information.

The HCFA is in the process of implementing       both of these new provisions.



COMMENTS

We received comments on the draft report from the Health Care Financing Administration,
the Assistant Secretary for Planning and Evaluation (ASPE) and the Assistant Secretary for
Management and Budget. They generally concur with our recommendations.        The actual
comments received are in Appendix E.

The HCFA stated it hopes to use experience gained in implementing the new transfer policy
authorized by the Balanced Budget Act to develop techniques that can be applied to a broader
set of DRGs. The HCFA also expressed concern that the publication referenced in a draft
report recommendation   does not target the intended audience. To accommodate this concern
we have modified our recommendation.

 The ASPE provided suggestions for changes in wording and clarifications of the text which
 we have for the most part incorporated into the final report. They suggest that the report
provide additional detail to the discussion about Federal requirements for discharge planning
and the referral processes used by hospitals when discharging patients to nursing homes and
home health agencies. Specifically, the ASPE recommended including a discussion of the
criteria used by hospitals in selecting the post-acute provider type to which beneficiaries were
referred. In an effort to better understand what factors are considered in making these post-
hospital placement decisions, we asked discharge planners “When you determine that
Medicare patients need post-hospital services, how do you decide whether they need home
health agency services or they need to go to a nursing home?” Most respondents indicated
that the following criteria were among the factors used to make this determination: the
patients’s medical needs, the degree of support available to the patient in their home, the
preference of the patient and family, and the patient’s ability to function safely at home. No
one criterium was cited as being more important than the others.




                                                  V
                           TABLE                             OF                                       CONTENTS

                                                                                                                 PAGE 


EXECUTIVE           SUMMARY 


INTRODUCTION                   . . . . . . . . . . . s . . . . . a ~. . . . . s . . . . . . . . . . . . . . . .          1


FINDINGS          . . . . . . . e. . . . . . n                      ..............................                       9


  Referrals to Nursing Homes                         . . .          ..............................                       9


  Nursing Home and Hospital Stays                                   ..............................                   10 


 Referrals to Home Health Agencies                                  ..............................                   11 


 Home Health Agency Stays                         . . . .           ..............................                   14 


 Continuity      of Care .........................................                                                   15 


 Beneficiary      Satisfaction           ......................................                                      16 


RECOMMENDATIONS                             ....................................                                     17 


APPENDICES 


A:   Discharge      Planning        Checklist           ................................                           A-l 


B: Utilization      Data       ........................................                                            B-l 


C:   Chi-Square      Values          ......................................                                        C-l

D:   Non-Respondent            Analysis          ..................................                                D-l

E: Comments           ...........................................                                                  E-l




                                                                                                     vi
                              INTRODUCTION 


PURPOSE

To determine how and to what extent hospital ownership of home health agencies or nursing
homes impacts hospital discharge planning for Medicare beneficiaries.

BACKGROUND

Post Hospital Care

A significant reduction in the average length of stay for acute care hospital patients created a
greater need for post-hospital services such as home health and nursing home care. These
reductions are widely believed to be associated with medical technology advances as well as
the implementation of the Medicare prospective payment system. As the average hospital
stay decreases, the role of the hospital discharge planning process has become more critical.
Rapid growth of managed care organizations, with their emphasis on cost containment and
efficiency, has also promoted discharging patients from hospitals as quickly as possible, and
arranging for lower cost post-acute services.

According to the Prospective Payment Assessment Commission, the average length of a
hospital stay for Medicare patients fell 13 percent between 1991 and 1994. During a similar
period, the Commission found that, of all Medicare facility payments, the share going to
post-hospital care providers increased from 6.9 percent to 22.4 percent. Facility payments
include those made by the Medicare program and co-insurance companies, as well as
beneficiary co-payments.    As one example, while Medicare payments for home health care
totalled an estimated $14.4 billion in 1995, home care spending is projected by the
Congressional Budget Office to grow to $26 billion by the year 2000. As the average
hospital stay decreases, the role of the hospital discharge planning process has become more
critical.

Hospital Discharge Planning

There appears to be no single recommended model for a hospital discharge planning process.
Definitions of what discharge planning involves and the organizational structures of the
departments and professional credentials of the discharge planning staff vary from hospital to
hospital. The social work or nursing department often has the primary responsibility for
discharge planning, generally with input from other healthcare team members.     The
responsibility is sometimes in the case management or utilization review department.

Effective discharge planning identifies the patient’s post-hospital needs early to ensure
discharge to a safe environment with the appropriate level of services. A typical scenario
might look like this: within 24 hours of entering the hospital, the admission record would be
screened to identify a high risk patient who requires discharge planning.    Typical high risk
criteria might include: age 65 and older, living alone with no immediate social supports;


                                               1
stroke, heart attack, chronic obstructive pulmonary disease, congestive heart failure,
emphysema, dementia, Alzheimers, AIDS, or other possibly life threatening illnesses;
admission from a residential care home; homelessness; and no insurance.

Once a determination has been made that a patient needs discharge planning, the discharge
planner conducts a psycho-social assessment and meets with utilization review staff, the
patient’s nurses and physicians, or other relevant interdisciplinary team members, to discuss
the patient’s care plan. Early on, the discharge planner solicits the patient’s preferences and
concerns, and reaches out to the family or other potential care givers to get their input and
cooperation.   As the discharge planner gains a clearer understanding of the level of care that
the patient needs after discharge, he/she analyzes the patient’s insurance coverage in an effort
to match the patient’s needs for services with those for which they are eligible.

Patients may be discharged to a variety of settings. These include a patient’s home with or
without services from a home health agency or a nursing home. One recent national study
on post-acute care’ found that two-thirds of discharged patients received post-acute care
services, with 29 percent going to nursing homes and 25 percent going home with care from
home health agencies (another 8 percent were discharged to rehabilitative homes).

Regulations Affecting Hospital Discharge Planning

Each hospital is required to have a discharge planning process in place. These requirements
are addressed in a number of places, including Federal laws and regulations, State licensing
requirements, and the Joint Commission on Accreditation of Healthcare Organizations’
accreditation standards. Federal policies related to financial arrangements between hospitals
and post-hospital services can be found in the Federal anti-kickback regulations.

Medicare Conditions   of Participation

Federal regulations2 require that hospitals have in place a discharge planning process. This
process must apply not only to Medicare and Medicaid patients but to all patients served by
the hospital who need discharge planning.    The rules include requirements that:

       (1) Patients in need of evaluation   be identified    on a timely basis;

       (2) a discharge planning evaluation be completed for patients identified during the
       initial screening, including an evaluation of the patient’s capacity for self-care and the
       possibility of this patient being cared for in the environment from which he/she
       entered the hospital;




     ‘Kane, R.L., M.D., Principal Investigator.       A Study of Post-Acute       Care.   Institute For
Health Services Research (HCFA #17-C98891)            May 1994.

    2 42 CFR Section 482.43,    effective January 12, 1995


                                                  2
         (3) discharge plans be developed by qualified personnel, patients be counseled as
         needed to prepare them for post-hospital care and the initial implementation of the
         patient’s discharge plan be done by the hospital;

         (4) the hospital must transfer or refer patients, along with necessary medical
         information, to appropriate facilities for follow-up care; and

         (5) the hospital must reassess its discharge planning process on an on-going          basis to
         ensure that it is responsive to the discharge needs of their patients.

JCAHO Requirements

When hospitals are accredited by the Joint Commission on Accreditation of Healthcare
Organizations, HCFA does not independently review the hospital. The JCAHO’s continuum
of care standards address discharge planning.    They specifically address the hospital’s need
to provide for: referral, transfer, or discharge of the patient to another level of care based on
the patient’s assessed needs; a discharge process which results in continuing care which is
appropriate; exchange of patient care and clinical information when patients are discharged;
and the establishment of a procedure to resolve denial-of-care conflicts over care, services,
or payment in the hospital.

Utilization     Review

Federal regulations3 discuss utilization review, a process        which seeks to assure that each
patient is discharged from the hospital at the appropriate        time. These regulations state that
the hospital must have in effect a utilization review plan        that provides for review of services
furnished by the institution and members of their medical           staff to patients entitled to
Medicare and Medicaid.

Patient Freedom      to Choose

Section 1802 of the Social Security Act seeks to ensure that free choice is guaranteed to all
Medicare patients. It states: “Any individual entitled to insurance benefits under this title
may obtain health services from any institution, agency, or person qualified to participate
under this title if such institution, agency, or person undertakes to provide him such
services. ” This gives patients freedom to choose who they want as their provider of post-
hospital services. Some within the home health industry interpret it even further to say that
patients must be provided with choices whenever a discharge planner refers them for post-
hospital services4.

Additionally,     Medicare requires all hospitals that participate   in the Medicare program    to



    3 42 CFR Section 482.30 Conditions         of Participation

    4 See 1997 Balanced Budget Act section on page x.


                                                     3
provide patients with “An Important Message From Medicare” at the time of admission. 

This message provides information on discharge from the hospital, including a description of 

the patient’s right to appeal to the Peer Review Organization if they think they are being 

asked to leave the hospital too soon. 


Anti-Kickback       Laws 


The Federal anti-kickback statute5 is also pertinent to the discharge planning process. 

Aimed at stemming fraud and abuse, this statute places some limitations on the referral of 

Medicare and Medicaid patients to services. It makes it illegal to offer or pay anything of 

value to induce a person to order any item for which payment may be made under the 

Medicare or Medicaid programs. 


A separate statute6 prohibits a physician with “a significant ownership interest in or a 

significant financial or contractual relationship with a home health agency” from preparing 

plans for care or certifying or recertifying to the need for care. Finally, another statute7 

generally prohibits Medicare or Medicaid payment where physicians refer patients to 11 

kinds of healthcare facilities or services, such as home health agencies, in which they have 

an ownership interest. 


State Licensing 


Depending on the       State, the State hospital licensing requirements may or may not have 

discharge planning      criteria. In New York State, these requirements are considered by 

discharge planners      to be more stringent than Federal or JCAHO rules. However, it should 

be noted that New       York is not necessarily representative of the country. 


Home Health Fraud Alert

In June 1995, the Office of Inspector General issued a Home Health Fraud Alert which
included information pertinent to the hospital discharge planning process. It discussed
providers paying or receiving kickbacks in exchange for Medicare or Medicaid referrals.
Specifically, providers were warned that, “Providing hospitals with discharge planners, home
health coordinators, or home care liaisons in order to induce referrals can constitute a
kickback. ”




    5 Section 1128B [42 U.S.C.      Section 1320a-76(b)]

    6 Section 1814(a)

    7 Section 1877


                                                  4
Health Care Financing Administration Activities

Oversight    of Home Health Agency Reimbursement

As the number of hospitals with on-site home care coordinators grows, so does the potential
for inappropriate solicitation and increased reimbursement.   The HCFA continues to oversee
the process by which the intermediaries audit home health agencies’ reimbursement claims
for home health agency coordination costs. The Health Insurance Manual8 specifies which
home health agency coordination costs are allowable. While specifying that some costs for
activities performed at the hospital are reimbursable, it emphasizes that a careful evaluation
is needed to ensure that no payment is made for: patient solicitation; activities duplicative of
the hospital’s discharge planning; and/or visits by home health agency staff to patients not yet
referred.

The manual also addresses reimbursement rules for home health coordination in hospital-
based home health agencies. In these instances, reasonable costs of hospital discharge
planning services performed by personnel assigned to the home health agency are allowable,
provided that the costs are classified as costs of the hospital and do not represent a
duplication of costs performed by other personnel.

Uniform     Needs Assessment    Instrument

As the result of a legislative mandate, HCFA developed and has begun testing a Uniform
Needs Assessment Instrument to evaluate a patient’s requirements for post-acute care.

Recent Studies

An Office of Inspector General report entitled “Financial Arrangements Between Physicians 

and Health Care Businesses,” mandated by Congress in June of 1988 and published May 

1989, analyzed the extent and impact of financial arrangements between physicians and other 

service providers.  The major finding was that many physicians had financial relationships 

with health care businesses to which they referred patients. A September 1993 report 

entitled “Medicare Home Infusion Therapy” found that physician ownership of home infusion 

companies (and other financial arrangements) were common. 


A recent study, “Understanding Hospital Referrals to Home Health Agencies,” by Kathryn 

H. Dansky, RN, PhD et al. studied 1990 discharge data from 61 Pennsylvania hospitals. 

They found that patients who were discharged from hospitals that own a home health agency 

are 21 percent more likely to receive a referral for home care services than those who are 

discharged from hospitals that do not own an agency. This increased referral rate was 

greater for urban than it was for rural hospitals. 


The previously   referenced    HCFA funded research project,   “A Study of Post-Acute   Care,” 




    ’ (HIM) #2113


                                                 5
included an analysis of whether hospital ownership of a post-acute facility was a good
predictor of the place to which patients would be discharged.    The fact that a hospital owned
a post-acute facility was not found to be a consistent predictor of whether or not a patient
received post-acute services, or of whether the post-acute provider was hospital-owned.

Other relevant work includes research done by the Prospective Payment Assessment
Commission which sought, among other things, to analyze whether hospital ownership of a
post-acute unit affected the average length of stay in the hospital. The Commission found
that the average length of hospital stay was lower in hospitals which owned post-acute care
units than in hospitals which did not own such a unit. In their view, this finding is
significant because it raises the question of whether hospitals are lowering their costs for
patients for whom they are receiving a lump sum payment from Medicare and discharging
those same patients to post-acute care for which they are being paid on a cost basis.

Operation Restore Trust

This inspection is being conducted as part of the Department of Health and Human Services
anti-fraud initiative called Operation Restore Trust (ORT). This is a joint effort by the
Office of Inspector General, HCFA, and the Administration on Aging designed to coordinate
Federal and State resources to combat fraud, waste, and abuse related to home health
agencies, nursing homes, and medical equipment and supplies. This initiative is focused on
5 States (California, Florida, Illinois, New York, and Texas) which together account for 40
percent of Medicare beneficiaries and expenditures.

METHODOLOGY

Samnle Selection

A stratified random sample of 1,000 Medicare beneficiaries was selected from the 1 percent
1995 inpatient Common Working File. We used this file even though it contained only 89
percent of 1995 claims because we needed the most up-to-date information we could get to
survey Medicare beneficiaries about their hospital and post-hospital experience.    We selected
all claims where the discharge date was between September 1, 1995 and December 3 1, 1995
and the discharge indicator showed the patient was sent to a skilled nursing home,
intermediate care nursing home or home health agency. For purposes of this report, we
grouped skilled and intermediate care facilities together and refer to them as nursing homes.
The result of this extract was 6,915 claims for 6,136 beneficiaries.   The Medicare numbers
for these 6,136 beneficiaries were matched to the Enrollment Database to find out which
beneficiaries were alive. A total of 1,3 16 beneficiaries had died, leaving 4,820 claims.

These 4,820 claims were divided into two strata: the five Operation Restore Trust States and
all other States. There were 1,572 inpatient claims for the five ORT States and 3,248 for all
others. We then randomly selected a total of 1,000 beneficiaries; 750 from the ORT strata
and 250 from all others. Unless otherwise noted, there were no significant differences in
respondents’ answers based on whether they were in the ORT or non-ORT strata. Since
managed care data is not included in the Common Working File and there is no itemization


                                               6

of services,    managed care beneficiaries   were not included in our sample for this study.

The hospital provider number was then selected from each beneficiary inpatient claim. This
number was subsequently found in the Online Survey and Certification Reports data, as well
as in the Hospital Cost Report Information System and used to identify which hospitals
owned nursing homes or home health agencies. The hospital-based designation was utilized
as a surrogate for ownership.  These files were also used to identify the nursing home or
home health agency (HHA) provider number.

The Common Working File was divided between the nursing home and home health agency
stay records for sample beneficiaries. The provider numbers were compared to the hospital-
owned provider numbers to determine hospital ownership.      This enabled us to identify those
beneficiaries in our sample who were discharged from hospitals to a post-hospital service
owned by their discharging hospital, as well as those discharged to services that were not
owned by their hospital.

For the purposes of this study, we use the term “post-hospital      services” to refer to care by
either a nursing home or a home health agency. Post-hospital        services which are not owned
by the discharging hospital are referred to as “independent. ”

Utilization    Data

We obtained data for each beneficiary in the sample for the period during hospitalization and
the 6 months subsequent to discharge from the hospital. This data included: the beneficiary’s
diagnosis related group; the hospital length of stay; the hospital charges; the type and
duration of the post-hospital service; the post-hospital diagnoses; the post-hospital charges
and, whether and how often the beneficiary was re-admitted to the hospital during the 6
month period following discharge from the hospital. This information was analyzed to
compare those beneficiaries who went to their hospital-owned post-hospital facilities with
those who did not.

Beneficiary    Ouestionnaire

Since previous Office of Inspector General studies have demonstrated the value of data
obtained from beneficiaries in understanding important issues, we used a mail survey to
contact beneficiaries about their hospital discharge planning experience and determine their
level of satisfaction with the process and its outcome.

From the sample, we identified the name and address of the beneficiary, and sent a mail
questionnaire to each of the 1,000 beneficiaries in our sample to be answered by either the
beneficiary or his/her surrogate.    We asked questions about: the hospital discharge planning
that was done for them; how they thought nursing homes or home health agencies were
chosen; whether they were given choices for their post-hospital care; how satisfied they were
with the post-hospital service selection process, as well as with the service itself; changes in
their activities of daily living and in their overall health; and, whether or not the post-
hospital service they received helped in their recovery.      We received responses from 650 (65


                                                   7
percent) of the 1,000 surveys. After excluding beneficiaries whose data records were 

incomplete, 561 beneficiaries remained--362 who received home health services and 199 who 

went to nursing homes upon discharge.     We then compared the answers of those beneficiaries 

who received services from providers owned by their discharging hospital to those who 

received services from providers not owned by their discharging hospital. 


Hospital Discharge   Planner Questionnaire 


We sent mail questionnaires to the discharge planning departments of our sample 

beneficiaries’ discharging hospitals. We asked discharge planners questions about: their 

experiences as a hospital discharge planner; directives their hospital had given them 

regarding their responsibility in the discharge planning process; how the choice of post-

hospital service for our sample beneficiary was made; any concerns they have in the area of 

discharge planning; and other questions about the discharge planning process when patients 

go to home health agencies and nursing homes. The discharge planners were also asked to 

send copies of relevant documents including: the screening criteria they use to determine 

which patients receive discharge planning services; a checklist of discharge-related  discussion 

points to cover with patients and their families; and, written procedures on determining 

which home health agency or nursing home to which Medicare patients will be referred. We 

then compared the answers of those discharge planners from hospitals that owned a nursing 

home or home health agency to those that did not. 


Since our unit of analysis was a beneficiary and there were instances where multiple 

beneficiaries went to a particular hospital, we duplicated pertinent records and counted those 

discharge planners’ responses more than once. Discharge planner questionnaires were 

received for 630 (63 percent) of the sample beneficiaries; the number of unique discharge 

planner responses received was 466. 


All differences reported between subgroups     are statistically   significant   at the 90 percent level 

unless otherwise noted. 


This inspection was conducted in accordance with the Quality Standards               for Inspections 

issued by the President’s Council on Integrity and Efficiency. 





                                                 8

                                     FINDINGS 


HOSPITAL OWNERSHIP SEEMS TO HAVE LITTLE INFLUENCE                            ON WHICH
NURSING HOME PATIENTS ARE REFERRED TO

Regardless of whether the nursing home was owned by the discharging hospital, nursing
home beneficiaries report having input in the referral process

We analyzed the discharge process experienced by beneficiaries in our sample who went to
nursing homes. Regardless of whether the nursing home was owned by the discharging
hospital, only 13 percent of beneficiaries say, “the hospital just told me where to go.” Only
a quarter of them report “no say” in the decision about which nursing home to choose.
Beneficiaries who went to hospital-owned nursing homes are likely to report that someone
from the hospital talked to them about which nursing home they wished to be referred to (73
percent).

Seventy-nine percent of all beneficiaries who were referred to a nursing home report that
they felt “no pressure” in their choice of a particular nursing home. There was no
significant difference in the responses of those who did and those who did not go to the
hospital-owned nursing home. In addition, many beneficiaries report that the decision to go
to a particular nursing home was made by a relative.

There appears to be a correlation between the amount of input a beneficiary believes he/she
has in the referral process and his/her satisfaction with the process and its outcome.  With
regard to nursing homes, those who indicate that they had no say in their referral to a
particular nursing home were less likely (47 percent) than beneficiaries who had all of the
say (93 percent) to report that they were satisfied with how the referral to the nursing home
was made.

The majority of Medicare patients who were in a nursing home prior to admission to the
hospital returned to the same service provider after hospitalization. The beneficiaries that
went to a different nursing home generally attribute the switch to a change in their health
care needs after discharge.

 Regardless of ownership, discharge planners report that hospital ownership is not a major
factor in the nursing home referral process

Just 5 percent of the discharge planners from hospitals that own nursing homes report that
they refer patients to the hospital-owned nursing home unless patients and families object.
None of the discharge planners from hospitals that own nursing homes report that it is
generally understood that they should send all their patients to the hospital-owned nursing
home.

Fourteen percent of discharge planners, when asked which things were important in choosing
the nursing home that a Medicare patient would go to, answered, “the nursing home is


                                               9
owned by the hospital. ” None of those discharge planners cited it as the main reason.

Hospitals are not likely to have procedures for referral to nursing homes

Two-thirds of discharge planners from hospitals which own nursing homes report not having
instructions on nursing home referral.

Forty-three discharge planners submitted attachments regarding their nursing home referral
policies. The policies outlined in these attachments were generally dictated by bed
availability. The typical procedure was that a patient would select three to five nursing
homes in a 50 mile radius. The beneficiary would go to the first nursing home to accept
them.

In the attachments we received on this issue, hospital ownership of a nursing home did not
seem to have a strong affect on the discharge policy. Of the 23 attachments received from
hospitals which owned a nursing home, only four mentioned their nursing home. An
example is that patients would be sent to the hospital-owned nursing home only if the patient,
his or her family and doctor had no preference.    All of the attachments seemed to indicate
that the patient was to be given input into the process of choosing their nursing home.

Forty percent of patients discharged from hospitals that owned nursing homes were referred
to the nursing home owned by their discharging hospital

Focusing only on nursing home patients who were discharged from a hospital that owned a
nursing home, we found that only 40 percent of them went to the hospital-owned nursing
home. The nursing home referral process is a complex one with many factors at work.
These include limited service and bed availability, as well as the proximity of the nursing
home to relatives or friends.

HOSPITAL OWNERSHIP DOES INFLUENCE THE LENGTH OF STAY IN BOTH
THE HOSPITAL AND THE NURSING HOME

Hospital ownership results in both shorter hospital stays and nursing home use of longer
duration

As discussed in the background section, there has been concern and some evidence that
hospitals which own nursing homes discharge patients sooner to their own facilities and those
patients stay in the facilities longer and are readmitted to the hospital more frequently. This
raises the question of whether hospitals are lowering their costs for patients for whom they
are receiving a lump sum prospective payment from Medicare and discharging those same
patients to post-hospital services for which they are being paid on a cost basis. This cost
shifting would result in increased Medicare reimbursement for the hospital. When we
analyzed relevant data for beneficiaries who got services from hospital-owned nursing homes,
we found additional evidence supporting this concern.

We found that the patients discharged   to the hospital-owned   nursing homes had significantly


                                                10 

shorter hospital stays. The average number of days that beneficiaries were in the hospital
prior to going to a nursing home owned by their discharging hospital was 6.8, as compared
to 8.9 days for those beneficiaries who went to a nursing home independent of their hospital.
This result is statistically significant. (See Appendix B.)

Those beneficiaries who went to a nursing home owned by the hospital they were discharged
from also averaged a longer stay in the nursing home. Beneficiaries who went to the owned
facility averaged a 37 day nursing home stay while those who went to a nursing home
independent of their hospital averaged a 29 day nursing home stay. This is also a statistically
significant difference. (See Appendix B.) This supports the concern that hospitals are
shifting patients from acute care, reimbursed under a lump sum prospective payment, to post-
acute care in nursing homes, which is reimbursed on a cost basis, thus maximizing Medicare
reimbursement.

There was, however, no significant difference in the number or hospital readmissions based
on ownership.   Also, our sample selection did not allow for analysis of specific diagnosis
related groups or sub-components of care providers such as skilled nursing facility distinct
units.

HOSPITAL      OWNERSHIP INFLUENCES REFERRALS TO HOME HEALTH
AGENCIES      MORE THAN IT DOES FOR NURSING HOMES

Many beneficiaries do not have full choice in selecting a home health agency

In contrast to nursing home beneficiaries, beneficiaries who went to hospital-owned home 

health agencies were more likely than those who went to agencies not owned by their 

hospital to report that the hospital “just sent home care people to them.” Thirty-eight percent 

of beneficiaries who went to hospital-owned home health agencies report that “the hospital 

just sent home care people” to them. In contrast, only 24 percent of the recipients of home 

health services which were independent of their discharging hospital reported this. 

Additionally, recipients of hospital-owned services were less likely to indicate that they had 

some form of input into the choice of a home care agency. These recipients were less likely 

to report one of the following: 


  0    “the hospital    advised me but I made my own decision;”
  0    “I made the     decision on my own without any advice from the hospital;”
  0    “I asked for    advice, and took the hospital’s recommendation;”
  0    “the hospital    gave me a list of home care agencies and I picked one.”

Because of the relatively small sample size, we cannot demonstrate that the differences
discussed above are statistically significant. However, the trend they point to is consistent
with a number of other related survey respondent trends.

When Medicare beneficiaries were asked whether someone from their discharging hospital
suggested the name of a home health agency or they thought of the agency themselves,
beneficiaries who got HHA services from providers which were owned by their discharging


                                                11 

hospital were less likely to report that they thought of the home care agency themselves.

While a quarter of nursing home beneficiaries report “no say” in the decision about which
nursing home to go to, more beneficiaries who got home health services (one-third) report
having “no say, ” regardless of ownership.   There appears to be a correlation between the
amount of input a beneficiary believed he/she had in the referral process and his/her
satisfaction with the process. Those who indicate that they had no say in their referral to a
particular home health agency were less likely (85 percent) than beneficiaries who had all of
the say (98 percent) to report that they were satisfied with how the referral to the home care
agency was made.



                                    Relationship Between Beneficiary Input and
                                        Satisfaction with the Referral Process
                              100
                                                                                  Lsamd
                               90
                                                                                 AllofIhesay
                               so                                                No Say

                         c    70




                         !x
                         s
                         b    40
                         a
                              30

                              20

                               10

                                0
                                     Nunring Hm               HHA




The majority of Medicare patients who had home health agency services before entering the 

hospital, used the same service provider after their hospitalization. This is true regardless of 

whether or not a patient was in a hospital which owns an HHA. When patients who report 

not using the same home care agency after their hospitalization were asked why they 

switched home care agencies after their hospitalization, most of them say that they did not 

like their original agency. No beneficiaries report changing agencies because the hospital 

indicated they should use the hospital-owned agency. 


Sixty-two percent of patients discharged from hospitals that owned a home health agency
were referred to an agency owned by the hospital

In contrast to nursing home beneficiaries, focusing only on home health patients who were
discharged from a hospital that owned a home health agency, we found that fully 62 percent
of them went to agency owned by the discharging hospital.




                                                       12 

Discharge planners report that hospital ownership is a factor in their referral process to
home health agencies

Nineteen percent of discharge planners from hospitals that own home health agencies report
that it is generally understood that they refer all their patients who need home health care to
their hospital-owned agency or that, unless patients or families object, they refer all patients
to their hospital-owned agency.

When discharge planners were asked which things were important in choosing a home health
agency for a Medicare beneficiary, 25 percent of those from hospitals that own a home
health agency responded, “the home health agency is owned” by the hospital. Seven percent
of them give it as the main reason.

Almost 10 percent of the discharge planners from hospitals that own home health agencies
believe that someone from the hospital puts pressure on patients to choose a particular home
health agency compared to 6 percent when there is no ownership.      Because of the relatively
small sample size, we cannot demonstrate that this last difference is statistically significant.
However, this trend is consistent with other related survey responses.

Hospitals owning home health agencies are somewhat more likely to have written or verbal
referral procedures than those without ownership

Fifty-three percent of discharge planners from hospitals that own home health agencies 

reported having written procedures or verbal instructions for determining to which home 

health agency a patient is to be referred. Forty-one percent of discharge planners from 

hospitals that do not own agencies report having similar instructions. 


Of the 121 discharge planners that reported having written procedures, almost half (58) of 

them submitted attachments in response to our request for procedural information on the 

home health care referral process. Of these, the majority (33) cited patient choice as the 

dominant factor in their discharge process. When patient choice is cited, the patient is 

usually presented with a list of options from which to choose. 


Fourteen of the planners who submitted attachments indicated that patients without a 

preference were directed to their hospital-owned home health agency. A typical example of 

this policy would be that “It is the policy of the case management department to refer 

patients to X home health agency if the patient lives in the area and does not express a 

preference for another care provider. ” Seven of the discharge planners submitted 

attachments which cited the discharge planning team or physician’s preference as the 

deciding factor in referring patients to a particular home health agency. In this case, a policy 

would not mention patient choice but would state that “the physician may recommend that a 

specific vendor be used. ” 


Only four attachments contained language which strongly encouraged the promotion of 

hospital-owned HHAs in the discharge process. One of these even included a hospital policy 

that says, “Referrals leaving the [hospital-owned] system = $$$ leaving the system. ” 



                                               13 

Discharge planners report giving adequate choice

Almost all discharge planners say that there is meaningful beneficiary involvement in the
discharge planning process. Regardless of ownership, 84 percent of all discharge planners
report that beneficiaries have all of the say or quite a bit of say in the choice of a home
health agency or nursing home to go to and less than 10 percent report that beneficiaries
have no say or just a little say.

Discharge planners rank a patient’s diagnosis and home support as the most important factors
in determining the patient’s need for post-hospital services. Similarly, in deciding whether to
refer a patient to a home health agency or a nursing home, discharge planners cite the
patient’s medical needs, the need for 24 hour supervision and home support as the dominant
considerations.

Most discharge planners list lack of patient/family commitment and availability of appropriate
services as the greatest obstacles to effective discharge planning (81 percent and 67 percent,
respectively).  Five percent of the respondents cite hospital pressure to discharge patients to
inappropriate post-hospital services as a problem in discharge planning.

While 72     percent of the discharge planners report having no checklist of discharge related
discussion    points, the majority of those without a checklist believe that one would be helpful
to them.     See Appendix A for a sample checklist based on common factors from selected
checklists   submitted by the discharge planners.

HOSPITAL OWNERSHIP              INFLUENCES       THE DURATION        OF HOME HEALTH
AGENCY SERVICES

Hospital ownership results in home health agency use of longer duration

As with nursing homes, there has been some evidence that hospitals which own home health
agencies discharge patients sooner to their own facilities and those patients stay in the
facilities longer. We found some evidence supporting this concern.

Those beneficiaries that received services from a home health agency owned by the hospital
they were discharged from averaged 49 days of service while those receiving care from a
home health agency independent of their hospital averaged 37 days of service. This is a
statistically significant difference. (See Appendix B.)

The average     number of days that beneficiaries were in the hospital prior to receiving care
from a home      health agency owned by their discharging hospital was 7.3 days. For those
beneficiaries   who received care from an agency independent of their discharging hospital the
average was     8.3 days. This one day difference was not satistically significant.

The number of hospital readmissions during the 6 month period after hospital discharge       to a
home health agency showed no significant differences based on ownership.




                                                 14 

BENEFICIARIES WHO GO TO HOSPITAL-OWNED NURSING HOMES AND
HOME HEALTH AGENCIES REPORT BETTER CONTINUITY OF CARE

One goal of the discharge planning process is to promote a strong connection between the
care provided in the hospital and the care given by the home health agency or nursing home.
It is generally assumed that if discussions are held with patients regarding their post-hospital
needs and how they can be addressed, the likelihood that these needs will be met is
improved.     It is also assumed that the earlier discussions are held and the more comfortable
beneficiaries feel with the timing of their hospital discharge, the better the continuity of their
care will be.

Beneficiaries who went to hospital-owned nursing homes are more likely to report having
been talked to early and having been discharged at the right time

Beneficiaries who received services from hospital-owned nursing homes are much more 

likely to report having been consulted in the beginning or middle of their stay about the 

 services they might need after their discharge.    Those who received services from a nursing 

home which was not owned by their hospital are more likely to report having been talked to 

just before they left the hospital or not at all. 


Ninety-five percent of the beneficiaries who went to a hospital-owned nursing home say that 

someone from the hospital spoke to them (or their families) about the services they thought 

they would need after discharge.     In contrast, only 61 percent of those beneficiaries who did 

not go to a hospital-owned nursing home reported having a similar conversation. 

Furthermore, the beneficiaries who went to the hospital-owned nursing home were twice as 

likely to report that the information hospital staff gave them about the post-discharge services 

they would need was helpful. Finally, beneficiaries who received services from hospital-

owned nursing homes are more likely to report believing that they were discharged from the 

hospital at the right time rather than too soon. 


Beneficiaries who went to the nursing home owned by their hospital are more likely to
report that the connection between their care providers is very good

Beneficiaries who received services from the hospital-owned nursing home are also more
likely to report that they received the services they were told they would get (100 percent
versus 64 percent). In addition, a greater proportion of this group said that the connection
between the care they got in the hospital and the care they received from the nursing home
was very good (88 percent versus 43 percent).

In addition, a higher percentage of beneficiaries who went to their hospital-owned nursing
home report that their overall health improved in the nursing home (77 percent versus 43
percent).




                                                15 

Beneficiaries who went to hospital-owned home health agencies are more likely to report
having been discharged at the right time

Beneficiaries who received services from hospital-owned agencies are more likely to report
believing that they had been discharged from the hospital at the right time (89 percent versus
77 percent) rather than too soon (8 percent versus 15 percent). In addition, beneficiaries
who got services from the hospital-owned home health agency are more likely than those
who received independent services to know what health care services they were supposed to
get after leaving the hospital.

Beneficiaries who went to hospital-owned home health agencies are more likely to report
that the connection between their care providers was very good

Beneficiaries who received services from the hospital-owned home health agency are also
more likely to report that they received the home health agency services they were told they
would get (92 percent versus 83 percent). In addition, a greater proportion of this group said
that the connection between the care they got in the hospital and the care they received from
the home health agency was very good. Because of the relatively small sample size, we
cannot demonstrate that the difference reported with regard to the connection between care
providers was statistically significant. However, the trend which the responses point to is
consistent with a number of other related survey responses.

HOSPITAL OWNERSHIP DOES NOT IMPACT BENEFICIARIES’                          REPORTED
LEVEL OF SATISFACTION

Beneficiaries report high levels of satisfaction with the discharge planning process

Over 80 percent of beneficiaries report being satisfied with: how much of a say they had in
the kind of services they would get after leaving the hospital; how well the hospital planned
for their post-hospital services; as well as, how the home health referral decision was made.
This was true regardless of whether or not the Medicare patient went to a home health
agency owned by their discharging hospital.

Beneficiary satisfaction with nursing home or home health agency services does not differ
based on hospital ownership

We asked beneficiaries about their level of satisfaction with: the care they got in the nursing
home; how long each visit by a nursing home person lasted; how well the nursing home
people worked together; and how well the nursing home people responded to their needs.
Over 85 percent of beneficiaries reported being satisfied in all of these areas. This pattern
held true when beneficiaries were asked about their overall level of satisfaction as well.
We asked beneficiaries about their level of satisfaction with: the number of home health
agency visits; how long each visit was; how well the staff worked together; and, how well
staff responded to their needs. Almost all (90 percent) beneficiaries reported being satisfied
in all of these areas. This pattern held true when beneficiaries were asked about their overall
level of satisfaction as well.


                                               16 

                        RECOMMENDATIONS 


Our findings suggest that hospital ownership of nursing homes plays a significant role with
regard to the nursing home beneficiary utilization patterns. The hospital stay is shorter and
the nursing home stay longer thus the hospital may be shifting cost from a prospective
payment system to a cost-based system, maximizing Medicare reimbursement.        Therefore,
we recommend the following:

  b	   The HCFA should develop statistical methods to target for special review providers
       who may be maximizing their Medicare reimbursement in this way. The records of
       these providers should be reviewed by the Peer Review Organizations, as in the past,
       or through some other suitable mechanism.      Providers who are found to be
       inappropriately discharging beneficiaries to their own nursing homes should be subject
       to payment adjustments and appropriate fines or penalties.

Our findings also suggest that hospital ownership plays a significant role in home health
agency referral discussions and some role, albeit a lesser one, in nursing home referral
discussions.  In addition, we found that many Medicare beneficiaries do not have full choice
in selecting a home health agency or nursing home. Therefore, we recommend the
following:

  b	   The HCFA should assure that hospitals disclose ownership       of home health agencies
       and nursing homes in a systematic way.

         0	    Hospitals which own home health agencies and nursing homes should be
               required to disclose the names of the home health agencies and nursing homes
               which they own to all beneficiaries who are possible candidates for these post-
               hospital services.

         � 	   Hospitals which own home health agencies and nursing homes should be
               required to disclose this information to HCFA.

  b	   The HCFA should take additional measures to assure that when beneficiaries are
       being discharged from the hospital they are given a choice in selecting a home health
       agency or nursing home from which to receive care.

         0	    Hospitals should be required to inform patients (or their families) that they are
               free to choose among home health agency providers and nursing homes. This
               information should be provided as early as possible.

         � 	   Hospitals should maintain a file of Medicare participating home health
               agencies and nursing homes in the area and provide beneficiaries (or their
               families) with a list of alternatives which are appropriate for the level of care
               they need.


                                                17
   b	    Since our findings support the need for additional Medicare beneficiary information
         related to post-hospital services and choice, we recommend that HCFA prepare
         information for beneficiaries addressing this issue and circulate it widely.



1997 BALANCED         BUDGET ACT

The 1997 Balanced Budget Act includes a provision which addresses the concern that some
hospitals are shifting costs from a prospective payment system to a cost-based system, thus
maximizing Medicare reimbursement.       Section 4407 of this recently enacted law redefines
beneficiaries with certain diagnoses who are discharged from hospitals to nursing homes and
home health agencies (as well as other prospective payment exempt settings) as “transfers.”
This limits payments to hospitals for these cases.

This recently enacted law also addresses the concern that hospitals disclose ownership
information and that Medicare beneficiaries are informed of their freedom to choose the
home health agency or nursing home to which they will be referred.      Section 4321 of the
1997 Balance Budget Act requires hospitals referring patients to home health agencies (HHA)
and other post-hospital providers to:

   0	    not specify or otherwise limit beneficiaries    in terms of which post-hospital   service
         provider they receive services from;

   � 	   provide beneficiaries with information   on HHAs and other post-hospital      providers
         which serve the area;

  � 	    disclose to the beneficiary any financial interest which the hospital may have in an
         HHA or other post-hospital provider to which they are referred; and,

  � 	    disclose to HCFA the nature of any financial interest which the hospital has in a home
         health agency or other post-hospital service provider, as well as related referral rate
         information.

The HCFA is in the process of implementing        both of these new provisions.


COMMENTS

We received comments on the draft report from the Health Care Financing Administration,
the Assistant Secretary for Planning and Evaluation (ASPE) and the Assistant Secretary for
Management and Budget. They generally concur with our recommendations.        The actual
comments received are in Appendix E.

The HCFA stated it hopes to use experience gained in implementing the new transfer policy
authorized by the Balanced Budget Act to develop techniques that can be applied to a broader
set of DRGs. The HCFA also expressed concern that the publication referenced in a draft


                                                  18 

report recommendation  does not target the intended audience.    To accommodate    this concern
we have modified our recommendation.

The ASPE provided suggestions for changes in wording and clarifications of the text which
we have for the most part incorporated into the final report. They suggest that the report
provide additional detail to the discussion about Federal requirements for discharge planning
and the referral processes used by hospitals when discharging patients to nursing homes and
home health agencies. Specifically, the ASPE recommended including a discussion of the
criteria used by hospitals in selecting the post-acute provider type to which beneficiaries were
referred. In an effort to better understand what factors are considered in making these post-
hospital placement decisions, we asked discharge planners “When you determine that
Medicare patients need post-hospital services, how do you decide whether they need home
health agency services or they need to go to a nursing home?” Most respondents indicated
that the following criteria were among the factors used to make this determination:     the
patients’s medical needs, the degree of support available to the patient in their home, the
preference of the patient and family, and the patient’s ability to function safely at home. No
one criterium was cited as being more important than the others.




                                               19 

                                  APPENDIX                     A

                    PROPOSED        DISCHARGE     PLANNING         CHECKLIST

Of the 121 discharge planners that report having checklists,   53 submitted      them for our
review.

The documents submitted varied greatly in length and content. We identified a number of
check lists which had a relatively simple, clear and user-friendly format and analyzed them.
They also had a relatively comprehensive set of items. Our working definition of
comprehensive was that the checklist included at least some items which fell into each of the
following three types: pre-admission factors; pre-discharge factors; and patient and family
involvement in discharge planning.

On the basis of our analysis of the documents and discharge        related discussions   with patients
and families we developed the sample checklist below:



                               Hospital Discharge Planning Checklist
                                        (A Proposed Model)



Patient ID                                           Admission Date
Admitting Dx                                         Planned Rx


                                  I. PRE-ADMISSION     STATUS

1.   Living arrangements
7.   Special Circumstances
2.   Physical (ADL) function
3.   Mental function
4.   Social supports
5.   DME used
6.   Services received

(DESCRIBE      EACH BELOW):




                                                1

                                   II. PRE-DISCHARGE          FACTORS 


1.   Understanding of medical condition by patient 

2.   Understanding of medical condition by family/SO 

3.   Physical (ADL) function 

4.   Mental function 

5.   Financial resources 

6.   Social supports available after discharge 

7.   Special circumstances 


(DESCRIBE        EACH BELOW):


                                        III. DISCHARGE        PLAN 


1.   Services needed after discharge 

2.   Type of Placement preferred by patient 

3.   Type of Placement preferred by family/SO 

4.   Type of Placement recommended by hospital 

5.   Type of Placement agreed to by patient/family 

6.   Specific agency/home recommended by hospital 

7.   Specific agency/home agreed to by patient/family 

8.   Pre-discharge counseling recommended 

9.   Special circumstances 


(DESCRIBE        EACH BELOW):

                                               IV. SUMMARY 


1. Nature and outcome        of patient and family involvement     in discharge   planning process: 





2. Anticipated    problems   in implementing     post discharge plans: 





3. Further hospital action contemplated: 





                                                   A-2 

                                  APPENDIX                  B

                    ANALYSIS      OF BENEFICIARY      UTILIZATION       DATA


Two separate files were created (one for nursing homes and one for HHAs) since it was
hypothesized that these two types of discharges might be different. The analysis involved
comparisons of the following data: (1) beneficiaries who went to a HHA (or nursing home)
owned by their discharging hospital, (2) beneficiaries who went to a HHA (or nursing
home) not owned by their discharging hospital even though their discharging hospital
did own a HHA (or nursing home), and (3) beneficiaries who where discharged from a
hospital which did not own a HHA (or nursing home) and went to an HHA (or nursing
home) which was independent of their hospital. Categories 2 and 3 were combined for this
analysis.

The analysis was a series of t-tests or chi-square tests depending on whether the variable was
continuous or categorical.  A separate analysis was performed for the HHA and nursing
home files. The continuous variables analyzed included the following:

1)     the number of days of the original hospitalization;
2)     the number of HHA or nursing home covered days; and,

The categorical   variables analyzed were:

1)     the DRG of the original hospitalization (coded for the top 35% of the DRGs);
2) 	   the primary diagnosis for the HHA (or nursing home) service (coded for the top 35%
       of diagnoses); and,
3) 	   the number of hospital readmissions during a six month period after the original
       hospital discharge.

Continuous   Variables-nursing   home file

Of the continuous variables analyzed by the two categories of ownership described above
within the nursing home file, both the DAYS variable and the HOSPCOVD variable showed
a significant difference by type of ownership as a result of the weighted analysis. The
DAYS variable refers to the number of nursing home covered days and the HOSPCOVD
variable refers to the number of days of the original hospitalization.  The difference appeared
in each of the two strata, ORT vs. non-ORT States, individually and when the strata were
combined.     The table below shows the difference combined.




                                             B-l
Comparison       of Number of nursing home covered days-Overall      Sample


  Type of Ownership                      Average Days         Standard Error of Mean

  1                                      37.41                3.32

  2                                      29.54                2.17
*t = 1.98- significant     at the 95 % confidence    level

Comparison       of Number of Days of Original Hospitalization


  Type of Ownership                      Average Days         Standard Error of Mean

  1                                      6.83                 .55

  2                                      8.89                 .45
*t = -2.89- significant     at the 99 % confidence    level

Continuous      Variables-HHA     File

Of the continuous variables analyzed by the two categories of ownership described above
within the HHA file, the only one which showed up significant as a result of the t-test was
the number of HHA covered days. It showed up higher for the cases where the beneficiary
was discharged to a home health agency owned by the beneficiary’s discharging hospital.
The difference appeared in each of the two strata, ORT vs. non-ORT States, individually and
when the strata were combined.    The table below shows the difference combined.

Comparison of Number of HHA covered days- Overall Sample


  Type of Ownership                      Average Days                Standard Error of Mean 


  hospital-owned                         49.33                       3.23 


  independent                            37.25                       2.13 



*t =3.12   - significant   at the 99% confidence     level

Categorical     Variables-HHA     and nursing home File

Of the three categorical variables analyzed within the HHA and nursing home file, no 

relationships were significant when the chi-square test was performed by the two types of 

ownership for the overall sample. There was a problem with the analysis of the two 

variables dealing with DRG and diagnosis code. Due to the many codes that exist for DRGs, 

categories of the DRGs and diagnoses were very small when the sample was analyzed. Since 

the sample was not designed for the specific purpose of comparing DRGs or diagnoses, this 



                                                     B-2
made a significant difference less likely to appear. The sample size for the number of
readmissions was not a problem, however, the value of the chi-square statistic (1.359) was
not significant.

CONFIDENCE INTERVALS FOR PERCENTAGE OF PATIENTS DISCHARGED                               TO
    A HOME HEALTH AGENCY OR NURSING HOME OWNED BY THEIR
                     DISCHARGING HOSPITAL


The computation of confidence intervals for the percentage of nursing home or home health
agency patients who were discharged from a hospital which owned a nursing home or a
home health agency is as follows:

                                       Nursing Home

Forty percent (rounded from 39.8 percent) of patients were referred to the nursing home
owned by the discharging hospital when the hospital owned a nursing home. The 95 percent
confidence interval for the estimate is:

       40% +I- 8.9%

                                   Home Health Agency

Sixty-two percent (rounded from 61.6 percent) of patients were referred to the home health
agency owned by the discharging hospital when the hospital owned a home health agency.
The 95 percent confidence interval for the estimate is:

       62% +I- 8.33%




                                           B-3 

                               APPENDIX                     C

                                    CHI-SQUARE     VALUES

We computed Chi-square values for survey response differences based on whether or not the
hospital owned a home health agency or nursing home. These values were computed for a
number of key questions for which such differences are reported in our findings. Differences
reported in the text of the report are significant at the 90% confidence level unless otherwise
noted.

                                            Table C

               CHI-SQUARE Values for Testing Significance of Differences
                     Based on Ownership for Key Survey Questions



                  Survey Question                      D    Chi-      P          Confidence
                                                       F    Square    Value        Level @
                                                       *    Value                   Which
                                                                               Difference Is
                                                                                Significant

 Do you believe the hospital ever puts pressure
 on Medicare patients to choose a particular           1     1.66      .20          80%
 home health agency?

 Were you given written procedures or verbal
 instructions from your hospital on how to             1     3.06      .08          92%
 determine which home health agency to refer
 Medicare patients to?

 Which of the following best describes how the
 decision was made about which home care               1     2.09      .14          86%
 agency you would get care from after leaving
 the hospital?

 Which of the following best describes the
 amount of say you had about which home care
 agency to use?
 How satisfied you were with how the decision                4.08      .04          96%
 was made on which home care agency you
 would get services from?




                                             C-l
Which of the following best describes the
amount of say you had about which nursing
home to go to?                                      1   3.35   .07   93%
How satisfied you were with how the decision
was made on which nursing home you would go
to after leaving the hospital?

Did you feel that you were discharged at the
right time, too soon or later than necessary?       1   2.53   .ll   89%
(HHA patients)

How good was the connection between the care
you got in the hospital and the care you got at     1   1.20   .27   73%
home?

About how soon after you were admitted to the
hospital did someone from the hospital first talk   1   2.91   .09   91%
to you or your family about health care services
you might need after you left the hospital?

Did you feel that you were discharged at the
right time, too soon or later than necessary?       1   3.43   .06   94%
(NH patients)

How good was the connection between the care
you got in the hospital and the care you got in     1   3.77   .05   95%
the nursing home?

* Degrees of Freedom




                                           c-2
                                APPENDIX                    D

                               NON-RESPONDENT          ANALYSIS




When surveys are used to collect data, the results may be biased if non-respondents      differ
from respondents.    For this inspection, a beneficiary for whom a beneficiary survey was not
received is a non-respondent.    Additionally, a discharge planner for whom a discharge
planner survey was not received is a non-respondent.      To test for the presence of any bias,
we first obtained information from HCFA’s 1995 1 percent Common Working File for all
1000 beneficiaries who were sent a mail questionnaire.      Information was also obtained on the
hospitals from which sample beneficiaries were discharged.       (These were the hospitals to
which discharge planner surveys were sent.)


Beneficiarv   Non-ResDondent    Analvsis

A total of 651 beneficiary surveys were returned, for a response rate of 65 percent. To test
for the presence of any non-response bias, we analyzed the variables which might influence
whether an individual would respond to the survey or that might affect his or her responses.
For the 1000 beneficiaries in our survey we looked at: whether the beneficiary went to a
home health agency owned by their discharging hospital; whether the beneficiary went to a
nursing home owned by their discharging hospital; sex; and, whether the beneficiary resided
in a ORT or non-ORT State. These categorical variables were tested using Chi-square with
the appropriate degrees of freedom.

The results of this analysis are presented in tables D( l-4). The Chi-square values given in
the tables provide a test of the difference between the distribution of the respondents and that
of the non-respondents    for the variable of interest. Also provided in the tables are the
response rates by the different values of the variables. The differences between the response
rates for the variables tested are not statistically significant.




                                             D-l
                                          Table D (1 - 4)

                 CHI-SQUARE Values for Testing Significance of Differences
                       Between Respondents and Non-Respondents  For
          (1) Hospital Ownership of HHA (2) Hospital Ownership of Nursing Home
                        (3) Sex and (4) ORT or non-ORT State

                       (1) HOME HEALTH             AGENCY OWNERSHIP


                                     Respondents                Non-      Total   Percent
                                                            respondents

  Beneficiary went to the             100 (28%)              41 (28%)      141      71%
  HHA owned by the
  discharging hospital

 Beneficiary did not go to            262 (72%)              105 (72%)     367      72%
 the HHA owned by the
 discharging hospital

IITotal                          I       362            I       146        508     71%


 CHI-SQ = .Oll 

 Degrees of Freedom    = 1




                               (2) NURSING      HOME OWNERSHIP


                                     Respondents                Non-      Total   Percent
                                                            respondents

 Beneficiary went to the                13 (6%)              21 (11%)       34     38%
 nursing home owned by the
 discharging hospital

 Beneficiary did not go to             187 (94%)             179 (89%)    366      51%
 the nursing home owned
 by the discharging hospital

 Total                                    200                   200       400      50% 



 CHI-SQ=2.057 

 Degrees of Freedom    = 1





                                                D-2 

                                         (3) SEX 



                     Respondents          Non-respondents       Total       Percent

  Male                 221 (34%)              105 (30%)          326 
       68%

  Female               430 (66%)              244 (70%)         674 
        64%

  Total                   651                     349           1000 
       65%



  CHI-SQ = 1.542 

  Degrees of Freedom    = 1





                                (4) ORT or non-ORT      STATE


                        Respondents          Non-respondents       Total      Percent

ORT State                497 (76%) 
              253 (72%)         750 
       66%

Non-ORT     State         154 (24%) 
             96 (28%)         250 
        62%

Total                         651 
                  349         1000 
         65%


CHI-SQ = 1.797 

Degrees of Freedom     = 1





                                          D-3 

Dischawe   Planner Non-Respondent       Analvsis

A total of 625 discharge planner surveys were returned, for a response rate of 63 percent. 

Because there was no data for 74 of the 1000 hospital records obtained, this analysis is based 

on 926 records rather than the full sample size. 


To test for the presence of any non-response bias, we analyzed the variables that might 

influence whether a hospital discharge planner would respond to the survey or that might 

affect his or her responses.  For the 926 discharge planners in our sample, we looked at: 

whether or not their hospital owned a home health agency; whether or not their hospital 

owned a nursing home; and, whether their hospital was in an ORT or non-ORT State. These 

categorical variables were tested using Chi-square with the appropriate degrees of freedom. 


Tables D-5 and D-6 show no statistically significant   differences   between respondents   and 

non-respondents for the variables tested. 


Table D-7 shows a statistically significant difference between respondents and non-

respondents with respect to whether or not the discharge planner’s hospital was in an ORT or 

non-ORT State.     In order to test whether this difference introduced any bias, we analyzed 

answers to a couple of key survey questions given by discharge planners from ORT and non-

ORT States. The two questions we looked at were: whether any home health agencies ever 

help make decisions about whether patients are in need of home health services and what the 

main reason was to send patients to the home health agency which the hospital owns. In 

both instances, the distribution of answers provided by ORT and non-ORT respondents were 

within 5 percentage points of each other. This difference was not statistically significant. 


Given the results of this analysis, we believe that the inspection findings fairly represent the 

experience and opinions of beneficiaries and discharge planners to whom the questionnaires 

were sent. We therefore believe that our survey results can be generalized to the universe of 

Medicare beneficiaries who were discharged to a home health agency or nursing home during 

the last four months of 1995, as well as the discharge planners who assisted them. 





                                              D-4 

                                        Tables D(57)

            CHI-SQUARE Values for Testing Significance of Differences
                 Between Respondents and Non-Respondents   For
  (5) Hospital Ownership of HHA (6) Hospital Ownership of Nursing Home and
                          (7) ORT or non-ORT State


          (5) HOSPITAL       OWNERSHIP        OF HOME HEALTH          AGENCY


                            Respondents                Non-          Total       Response
                                                   respondents                     Rate

Hospital Owns               298 (48%)               130 (43%)         428          70%
HHA

Hospital Does Not           327 (52%)                171 (57%)        498          66%
Own HHA

Total                I          625           I        301       1    926
                                                                      926    1     67%


CHI-SQ = 1.648
Degrees of Freedom   = 1




                (6) HOSPITAL      OWNERSHIP         OF NURSING       HOME


                           Respondents                 Non-          Total       Response
                                                   respondents                     Rate

Hospital Owns NH            252 (40%)               122 (40%)         374          67%


Hospital Does Not           373 (60%)               179 (59%)         552          68%
Own NH

Total                           625                    301            926          67%


CHI-SQ=0.004 

Degrees of Freedom   = 1





                                           D-5 

                             (7) ORT OR non-ORT      STATE


                        Respondents                 Non-      Total   Response
                                                respondents             Rate

ORT State                   446 (71%)           247 (82%)     693       64%


non-ORT     State           179 (29%)            54 (18%)     233       77% 

Total                          625                  301       926       67% 



CHI-SQ= 12.352
Degrees of Freedom   = 1





                                        D-6 

                             APPENDIX                  E


                       COMMENTS ON THE DRAFI’ REPORT



In this appendix, we present in full the comments from the Health Care -Financing
Administration, the Assistant Secretary for Planning and Evaluation and Assistant
Secretary for Management and Budget.




                                         E-l
      DEPARTMENT    OF HEALTH    & HUMAN    SERVICES                      Health Care Financing Administration



                                                                          The Administrator
                                                                          Washington, D.C.    20201

                                                NOV I7 1997

                                                                            EIG
DATE:
                                                                            Eoa
                                                                            DIG-AS
                                                                            DIG-EC
                                                                            DIG-H
TO:           June Gibbs Brown                                              DIG-G1
                                                                            DIG-MP
              Inspector General                                             AIG-LC
                                                                            OGUIG
                                                                            ExccseC
FROM:                                                                       DateSent
              Nancy-Arm Min DeParle        VW
              Administrator

SUBJECT: 	 Office of Inspector General (OIG) Draft Report: “Medicare Hospital
           Discharge Planning,” (OEI-02-94-00320)


We reviewed’the above-referenced report that examines how and to what extent hospital
ownership of home health agencies (HHAs) or nursing homes impacts hospital discharge
planning for Medicare beneficiaries.

A significant reduction in the average length of stay for acute care hospital patients
created a greater need for post-hospital services such as home health and nursing home
care. These reductions are widely believed to be associated with advances in medical
technology as well as the implementation of the Medicare prospective payment system.
As the average hospital stay decreases, the role of the hospital discharge planning process
becomes more critical.

The report raises concerns of whether hospitals are lowering their costs for patients for
whom they are receiving a lump sum prospective payment from Medicare and
discharging those same patients to post-hospital services for which they are being paid on
a cost basis. This cost shifting would result in increased Medicare reimbursement for the
hospital.

The Health Care Financing Administration (HCFA) concurs with OIG recommendations
one through five. We do not concur with recommendation six. Our detailed comments
are as follows:

OIG Recmon             #l.

HCFA should develop statistical methods to target special review providers who may be
maximking their Medicare reimbursement in this way. The records of these providers
should be reviewed by the peer review organizations (PROS), as in the past, or through
                                                                                      2


  some other suitable mechanism. Providers that are fou.nd.to be inappropriately
  discharging beneficiaries to their own nursing homes should be subject to payment
  adjustments and appropriate fmes or penalties.

 HCFA    Respmsc




 We concur with the intent of the recommendation that inappropriate discharges should be
 eliminated. However, we do not believe these discharge patterns only occur in the
 context of hospitals discharging to their own post-acute facilities. Rather, the recent
 increases in system integration and coordination between hospitals and post-acute
 facilities have changed discharge patterns across a wide range of hospitals. We are
 currently evaluating projects to be undertaken by the PROS concerning hospital
 admissions and discharges.

We believe a more positive approach to these changes is the post-acute transfer policy
that was recently enacted in the Balanced Budget Act of 1997 (BBA). Beginning in fiscal
year 1999, the Secretary will be allowed to implement a limited, post-acute transfer
policy. Under this policy, if a hospital transfers a patient under 1 of 10 diagnosis-related
groups (DRGs) designated by the Secretary to a post-acute facility, the case will be paid
as a transfer, not as a discharge. The transfer payment is based on a per diem
methodology, capped at the level of the full DRG payment. In fiscal year 2001, the
Secretary has the option of expanding this policy to other DRGs. We believe this
incremental approach will give us the time and experience to create a post-acute transfer
policy that addresses the concerns of this report. We are currently working with the
PROS to identify pilot projects to address these issues.

OIG Recmon              #2

HCFA should ensure that hospitals disclose ownership of HHAs and nursing homes in a
systematic way.

Hospitals should inform beneficiaries who are possible candidates for these post-hospital
services of the names of the HHAs and nursing homes they own.

HCFA    lbsgonse

We concur. This issue is addressed by section 4321(a) of BBA that HCFA will
implement by issuing regulations and, as needed, instructions.
                                                                                        3


 OIG Rmation               #3

Hospitals should be required to disclose to HCFA the names of HHAs and nursing homes
that they own.



We concur. Fiscal intermediaries process cost reports for all entities owned by the
hospital so they do know ownership information. This issue is addressed by
section 4321(b) of BBA that HCFA will implement by issuing regulations and, as needed,
instructions.
                       .


DIG   Recommendation       #4




HCFA should take additional measures to ensure that when beneficiaries are being
discharged from the hospital they are given a choice in selecting a HHA or nursing home
from which to receive care.

Hospitals should be required to inform patients (or their families) that they are free to
choose between home health agency providers and nursing homes. This information
should be provided as early as possible.



We concur. This issue is addressed by section 4321(a) of BBA that HCFA will
implement by issuing regulations and, as needed, instructions.
                       .
GIG Recm

Hospitals should maintain a file of Medicare participating HHAs and nursing homes in
the area and provide beneficiaries (or their families) with a list of alternatives appropriate
for the level of care they need.

HCFA.
We concur. This issue is addressed by section 4321(a) of BBA that HCFA will
implement by issuing regulations and, as needed, instructions.
OIG Rd                 #6

The report findings support the need for additional Medicare beneficiary information
related to post-hospital services and choice. Therefore, a wide circulation of the next
released HCFA publication entitled “Healthcare Choice--A Consumer Guide for Planning
Ahead” is recommended.

     A Resm

While we recognize the need identified in this recommendation, we do not concur at this
time because there is no publication that is soon to be released. The draft publication
referenced in your recommendation does not target the intended audience. Also, the
information in the draft does not meet the needs described in the recommendation. With
the recent reorganization within HCFA, we are currently undertaking, through a contract,
an extensive examin ation of the way we distribute all Medicare informational materials,
and options for changing the way we provide printed and audiovisual materials. HCFA
recently received the draft report that details the number and types of informational
materials produced in its central and regional offices and by HCFA’s partners. A survey
revealed a large number of publications by partners, many of which appear to be
duplicative, have inaccuracies, and are without HCFA-wide coordination. The survey
demonstrates the opportunity for improved customer service through consolidation of
current infbrmation dissemination functions.

The next publications report will include a set of design options for accomplishing
consolidation, including a centralized electronic publications clearinghouse. Any of the
suggested designs is expected to incorporate principles of efficient dissemination, be
tailored to individual beneficiary needs, eliminate duplication, and use a consistent
message. The target date for the final report is December 22. Once we have the survey
results as well as other needs assessment information, we will determine the need for the
referenced publication.
        DEPARTMENT       OF HEALTH & HUMAN         SERVICES                         Office of the Secretary



                                                                                    Washington,   D.C.   20201




TO:                                                                                           DIG-01
                Inspector General

FROM:           David F. Garrison
                Principal Deputy Assistant Secre
                   for Planning and Evaluation

SUBJECT:        OIG Draft Report: “Medicare Hospital Discharge Planning” -- Conditional
                Concurrence        o&7- 02-74~0320

The OIG proposes to issue a report on hospital discharge planning for Medicare beneficiaries
discharged to nursing homes (NHs) or home health agencies (HHAs). The OIG was particularly
interested in understanding the impact of hospital ownership on patterns of care and discharge
processes for beneficiaries discharged to NHs and HHAs. I concur on the condition that the
report be rewritten to reflect the enactment of the Balanced Budget Act of 1997, and more
completely reflect ProPac’s discussion about possible explanations for observed differences in
hospital and nursing home lengths of stays for persons referred to hospital-owned facilities. In
addition, I have made other minor and technical comments on the report, including areas that the
OIG may wqt to consider for fkther study.

OIG Recommendations    and the Balanced Budget Act. Several recommendations   proposed by
the OIG were recently exkted in the Balanced Budget Act (BBA) of 1997. Specifically:

.	      The OIG reco~encls,    due to concerns about cost shifting between the hospital and NH,
        that HCFA conduct targeted provider reviews by organizations such as the PROS and
        recommends that hospitals found to inappropriately discharge beneficiaries to their own
        NHs be subject to payment adjustments and fines.

        Section 4407 of the BBA limits payment to acute care hospitals for cases defined as
        “transfer cases,” i.e., beneficiaries with certain diagnoses who are discharged fkom acute
        care hospitals to PPS-exempt settings (including home health and skilled nursing
        facilities). The law limits payments to hospitals for these cases.

. .	    The OIG recommends that hospitals inform beneficiaries of their freedom of choice of
        providers, maintain a list of NHs and HHAs in the area, and that hospital-ownership of
        NHs and HHAs be disclosed to HCFA and beneficiaries who may use these services.
   Page 2 - June Gibbs Brown

   Section 4321 of the BBA requires that hospitals disclose to the Secretary the financial
   relationships between the hospital and post-hospital providers to which beneficiaries are referred
   and the percentage of patients referred to post-hospital settings in which the hospital has a
   financial interest. The BBA requires the Secretary to disclose this information to the public. In
   addition, the la<-&so prohibits hospitals from limiting the home health providers that may
   provide post-hospital services.

   I recommend that the report and the recommendations     be rewritten to reflect the enactment   of
   these provisions in the BBA.

   Imnact of Ownershin on Hosnital and Nursing Home Length of Stav. The OIG reported finding
   that beneficiaries referred to hospital-owned NHs had shorter lengths of hospital stays and longer
   NH stays compared with beneficiaries referred to NHs not owned by the hospital. As the OIG
   notes, this finding is consistent with earlier work by ProPac. However, the OIG states that this
   finding may indicate cost shifting from a prospective payment system to a cost-based
   reimbursement system. While I do not disagree that this could simply be an effort to maximize
   Medicare reimbursement, I also believe that this could reflect efforts by hospitals and hospital-
   based facilities to more effectively coordinate care across settings for certain types of
   beneficiaries. I note that ProPac also suggested that the observed impact on hospital and nursing
   home lengths of stays could be due to coordination and case mix. I recommend the OIG report
   be more balanced when attributing causes to differences in length of stay and more completely
   discuss the ProPac findings.

   Other Issues

   The OIG report references should work on the Uniform Needs Assessment Instrument. This
   discussion should be strengthened to include information on the purpose and potential use of this
                                                                             .
   instrument.

   The report should indicate how the sampled nursing homes and home health agencies were
   divided into hospital-owned and not hospital-owned providers.

   The report should clarify the source of supporting evidence that beneficiaries who are discharged
   to hospital-owned home health agencies have more frequent hospital readmissions (i.e., p. 14 --
   first paragraph under the heading, “‘Hospitalownership results in home health use of longer
-	 duration ‘3. In addition, I recommend that the second sentence of this paragraph clarify that
   while the OIG found some evidence supporting this fmding,.this evidence was not statistically
   significant.

   The OIG recommends wide circulation of a publication entitled, “Health care Choices -- A
   Consumer Guide for Planning Ahead.” I recommend the report provide the reader with more
   information about this guide.
Page 3 - June Gibbs Brown

Next Steps

The OIG report includes a discussion about Federal requirements for discharge planning and the
referral processes used by hospitals when discharging patients to nursing homes and home health
agencies. The deport does not discuss the criteria used by hospitals in selecting the post-acute
provider type to which beneficiaries were referred. Given that there is at least some overlap in
the types of patients served by the various post-acute care providers, I believe it is important to
understand what factors are considered in making post-hospital placement recommendations         and
decisions.   If possible, I recommend the OIG include a discussion about the criteria used by
hospitals in referring patients to home health agencies or nursing home providers. If the OIG did
not gather this information as part of this study, the OIG may wish to identify this as an area in
which further study is needed.

On a related note, the OIG points out that there is no single model of hospital discharge planning
(e.g., definitions of discharge planning, organizational structures, and staff qualifications vary
across hospitals). An additional area that would benefit from further work is the development of
a typology of discharge planning. I recommend that the OIG consider identifying this as area in
need of development.
          DEPARTMENT       OF HEALTH & HUMAN    SERVICES                   Office of the Secretary



                                                                           Washington,   D.C.   20201

                                                    AUG 2 9 1997

   MEMORANDUM            TO: 	   June Gibbs Brown
                                 Inspector General 1

   FROM         : 4. 	           John J. Callaha
                                 Assistant Secret

   SUBJECT        :	             Concur with Comment -- OIG Draft Report: “Medicare
                                 Hospital Discharge Planning” &/-62-    ?r/- wL3



  The Balanced Budget Act of 1997 includes a provision that will change hospital
  discharge policy in certain situations.  Under the new policy, certain hospital DRGs
  selected by the Secretary will be treated as “transfers” rather than “discharges.” The
  change addresses to some extent the problem of hospitals discharging patients quicker
  in order to maximize their Medicare reimbursement.

  As this policy change will likely affect discharge planning procedures in some hospitals,
  we recommend that OIG include a paragraph in the introduction section explaining the
  new law.




EIG
ii%
DIGAS
DIG-EC
DIG-U
DIG-01
DIG-b%’
AIG4.C
OGCnG

itszlt
